App. 1
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
(Filed Apr. 21, 2021)
Rulings by summary order do not have preceden­
tial effect. Citation to a summary order filed on
or after January 1, 2007, is permitted and is gov­
erned by Federal Rule of Appellate Procedure
32.1 and this court’s Local Rule 32.1.1. When cit­
A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE FEDERAL AP­
PENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTA­
TION “SUMMARY ORDER”). A PARTY CITING A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.

ing

At a stated term of the United States Court of Ap­
peals for the Second Circuit, held at the Thurgood Mar­
shall United States Courthouse, 40 Foley Square, in
the City of New York, on the 21st day of April, two
thousand twenty-one.
PRESENT: JOHN M. WALKER, JR.,
DENNY CHIN,
Circuit Judges,
PAUL A. ENGELMAYER,
District Judge*

* Judge Paul A. Engelmayer, of the United States District
Court for the Southern District of New York, sitting by designa­
tion.

App. 2
■x

ANTHONY FUTIA, JR., ROBERT L.
SCHULZ,
Plaintiffs-Appellants,
-v-

20-2947-cv

WESTCHESTER COUNTY BOARD
OF LEGISLATORS, BENJAMIN
BOYKIN, II, Chairman, HARRISON
TOWN BOARD, RON BELMONT,
Supervisor,
Defendants-Appellees.
■x

FOR PLAINTIFFSAPPELLANTS:

ROBERT L. SCHULZ,
pro se, Queensbury, New
York, and Anthony Futia,
Jr., pro se, North White
Plains, New York.

FOR DEFENDANTSAPPELLEES
WESTCHESTER
COUNTY BOARD OF
LEGISLATORS AND
BENJAMIN BOYKIN, II:

DAVID H. CHEN, Deputy
County Attorney, Appeals,
for John M. Nonna,
Westchester County
Attorney, White Plains,
New York.

FOR DEFENDANTSAPPELLEES HARRISON
TOWN BOARD AND
RON BELMONT:

RICHARD S. FINKEL,
Bond, Schoeneck & King
PLLC, Garden City,
New York.

Appeal from the United States District Court for
the Southern District of New York (Briccetti, J.).

App. 3
ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DE­
CREED that the judgment of the district court is AF­
FIRMED.
Plaintiffs-appellants Anthony Futia, Jr. and Robert
L. Schulz (together, “plaintiffs”) appeal the district
court’s judgment, entered August 7, 2020, dismissing
their claims against defendants-appellees the
Westchester County Board of Legislators and its chair­
man Ben Boykin, II, and the Harrison Town Board and
its supervisor Ron Belmont (collectively, “defendants”)1
for lack of subject matter jurisdiction under Federal
Rule of Civil Procedure 12(b)(1) and for failure to state
a claim under Rule 12(b)(6). We assume the parties’ fa­
miliarity with the underlying facts, the procedural his­
tory of the case, and the issues on appeal.
Plaintiffs’ federal claims are based on their allega­
tions that defendants violated the Guarantee Clause
of the United States Constitution by voting to increase
compensation for elected officials during the term for
which they were elected, which deprived plaintiffs of a
republican form of government. Plaintiffs further al­
lege that defendants’ failure to respond to the petitions
they submitted to complain about this pay increase
violated their rights under the Petition Clause of the

1 In their opposition to the defendants’ motion to dismiss,
plaintiffs clarified that they were not suing Boykin or Belmont,
and the district court accordingly dismissed the claims against
those defendants. Plaintiffs do not contest those dismissals on
appeal.

App. 4
First Amendment. They also allege claims under state
and local law.2
“When reviewing the dismissal of a complaint for
lack of subject matter jurisdiction” under Rule 12(b)(1),
“we review factual findings for clear error and legal
conclusions de novo” Liranzo v. United States, 690 F.3d
78, 84 (2d Cir. 2012); see also Cortlandt St. Recovery
Corp. v. Hellas Telecomms., S.A.R.L., 790 F.3d 411, 417
(2d Cir. 2015) (reviewing dismissal of complaint for
lack of standing under Rule 12(b)(1) de novo). We also
review de novo the dismissal of a complaint for failure
to state a claim under Rule 12(b)(6). Forest Park Pic­
tures v. Universal Television Network, 683 F.3d 424,
429 (2d Cir. 2012). Finally, we review a district court’s
decision declining to exercise supplemental jurisdic­
tion over state law claims for abuse of discretion. Klein
& Co. Futures, Inc. v. Bd. of Trade of City of New York,
464 F.3d 255, 262 (2d Cir. 2006).
The district court did not err in finding that nei­
ther plaintiff had standing to sue the Harrison Town
Board because neither is a resident of the Town of Har­
rison, and status as a state taxpayer alone is insuffi­
cient to establish standing. See Bd. of Educ. of Mt.
Sinai Union Free Sch. Dist. v. New York State Tchrs.
Ret. Sys., 60 F.3d 106, 110 (2d Cir. 1995) (“State tax­
payers, like federal taxpayers, do not have standing to
2 In an earlier appeal brought by these plaintiffs, we affirmed
by summary order the district court’s dismissal of similar claims.
See Futia v. State of New York, No. 19-286-cv (2d Cir. Nov. 24,
2020). The Supreme Court denied plaintiffs’ petition for a writ of
certiorari on March 29, 2021.

App. 5
challenge the actions of state government simply be­
cause they pay taxes to the state.”). Further, the dis­
trict court correctly held that Schulz, who does not live
in Westchester County, does not have standing to sue
the Westchester County Board of Legislators because
he does not have a “direct and immediate” relationship
with the County sufficient to confer standing. See id.
at 110-11.
The district court also did not err in dismissing
plaintiffs’ Guarantee Clause claim for lack of subject
matter jurisdiction because the claim presents nonjusticiable political questions, such as local government
budget allocation. See, e.g., Rucho v. Common Cause,
139 S. Ct. 2484, 2506 (2019) (“This Court has several
times concluded . . . that the Guarantee Clause does
not provide the basis for a justiciable claim.”). The dis­
trict court also did not err in dismissing plaintiffs’ Pe­
tition Clause claim for failure to state a claim, because
the right to petition the state does not mean there is a
right to a response. See Minn. State Bd. for Cmty. Colls,
v. Knight, 465 U.S. 271, 285 (1986). The Supreme
Court’s broad discussion of the Petition Clause in
Knight, contrary to plaintiffs’ claim, was not limited to
public employees or policy complaints. See id. (“Noth­
ing in the First Amendment or in this Court’s case law
interpreting it suggests that the right! ] to . . . petition
require [s] government policymakers to listen or re­
spond to individuals’ communications on public is­
sues.” (emphasis added)). Finally, the district court did
not abuse its discretion in declining to exercise supple­
mental jurisdiction over the state law claims. See Klein

App. 6
& Co. Futures, Inc., 464 F.3d at 262 (“It is well settled
that where . . . the federal claims are eliminated in the
early stages of litigation, courts should generally de­
cline to exercise pendent jurisdiction over remaining
state law claims.”).
We have considered plaintiffs’ remaining argu­
ments and conclude they are without merit. Accord­
ingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

App. 7
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
■x

ANTHONY FUTIA, JR., and
ROBERT L. SCHULZ,
Plaintiffs,

20 CIVIL 1237 (VB)

-against-

JUDGMENT

WESTCHESTER COUNTY
(Filed Aug. 7, 2020)
BOARD OF LEGISLATORS;
BEN BOYKIN, Chairman;
HARRISON TOWN BOARD; and
RON BELMONT, Supervisor,
Defendants.
x

It is hereby ORDERED, ADJUDGED AND DE­
CREED: That for the reasons stated in the Court’s Or­
der dated August 6, 2020, the motions to dismiss are
granted; accordingly, this case is closed.
Dated: New York, New York
August 7, 2020
RUBY J. KRAJICK
Clerk of Court
BY: /s/ David J. Thomas
Deputy Clerk

App. 8
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
■x

ANTHONY FUTIA, JR., and
ROBERT L. SCHULZ,
Plaintiffs,

OPINION AND
ORDER

v.

WESTCHESTER COUNTY
20 CV 1237 (VB)
BOARD OF LEGISLATORS;
(Filed Aug. 6, 2020)
BEN BOYKIN, Chairman;
HARRISON TOWN BOARD; and
RON BELMONT, Supervisor,
Defendants.
■x

Briccetti. J.:
Plaintiffs Anthony Futia, Jr., and Robert L. Schulz,
proceeding pro se, bring this action against defendants
Westchester County Board of Legislators (“WCBOL”),
WCBOL Chairman Ben Boykin, the Harrison Town
(“Town”) Board, and Town Supervisor Ron Belmont,
alleging violations of the Guarantee Clause of the U.S.
Constitution, the First Amendment, the New York
State Constitution, and other state and local laws.
Now pending are defendants’ motions to dismiss
the complaint pursuant to Rules 12(b)(1) and 12(b)(6).
(Docs. ##11,15).
For the following reasons, the motions are
GRANTED.

App. 9

BACKGROUND
For the purpose of ruling on the motions to dis­
miss, the Court accepts as true all well-pleaded factual
allegations in the complaint, and draws all reasonable
inferences in plaintiffs’ favor, as summarized below.1
Plaintiffs are citizens of New York. At all relevant
times, Futia resided in North White Plains, within
Westchester County, and Schulz resided in Queensbury, within Warren County.
I.

Westchester County Board of Legislators

In 2000, WCBOL enacted Local Law (“L.L.”) 242000, which created the Compensation Advisory Board
(“CAB”). CAB’s stated functions include advising
WCBOL whether any changes or adjustments to the
compensation paid to members of WCBOL is war­
ranted, and submitting recommendations to WCBOL
regarding same. Pursuant to L.L. 24-2000, CAB is to
1 Plaintiffs filed along with their complaint a submission
styled “Plaintiffs’ Affidavit.” (Doc. #2). Annexed to the affidavit
are documents discussed in the complaint and referred to therein
as exhibits. Although plaintiffs’ affidavit is not an allowed plead­
ing, in considering the motions to dismiss, the Court will consider
the documents annexed to the affidavit. See Fed. R. Civ. P. 7 (com­
prising a list of allowed pleadings in federal actions).
Because plaintiffs are proceeding pro se, the Court also con­
siders allegations made for the first time in plaintiffs’ opposition
to the motion to dismiss. See, e.g.. Vlad-Berindan v. MTA N.Y.C.
Transit. 2014 WL 6982929, at *6 (S.D.N.Y. Dec. 10, 2014). More­
over, because plaintiffs are proceeding pro se, they will be pro­
vided copies of all unpublished opinions cited in this decision. See
Lehron v. Sanders. 557 F.3d 76, 79 (2d Cir. 2009).

App. 10
be comprised of seven members appointed by WCBOL
in even-numbered years.
Every two years, a new slate of WCBOL members
is elected by Westchester County voters. On November
5,2019, seventeen individuals were elected to WCBOL
for the 2020-2021 term.
On November 18, 2019, WCBOL passed two reso­
lutions scheduling a public hearing to discuss two
pieces of proposed legislation: L.L. 12292-2019, to “pro­
vide for payments of increased compensation for offic­
ers appointed for a fixed term and elective officers
during their term of office” (Doc. #1 (“Compl.”) f 20),
and L.L. 12294-2019, to increase compensation of the
“Members of [WCBOL].” (Id.). However, plaintiffs al­
lege WCBOL did not appoint any members to CAB in
2018, and thus CAB was not convened in 2018 or 2019.
For this reason, plaintiffs allege CAB did not advise
WCBOL in 2019 whether any changes or adjustments
to the compensation paid to members of WCBOL was
warranted, and therefore did not recommend to
WCBOL compensation adjustments for the 2020-2021
term.
On December 3, 2019, at the scheduled public
hearing, Futia spoke out against the proposed legisla­
tion.
On December 9, 2019, WCBOL passed the legisla­
tion. L.L. 12292-2019 made effective salary increases
for certain appointed officers and certain elected offic­
ers. L.L. 12294-2019, which took effect January 1,

App. 11
2020—the start of the next term—increased WCBOL
members’ salaries from $49,200 to $75,000.
On January 6, 2020, plaintiffs served WCBOL
with a petition, alleging violations of federal and state
law in connection with the enactment of the above
legislation. (Doc. #2 at ECF 23-25).2 The petition de­
manded WCBOL either repeal the legislation or re­
spond to plaintiffs’ complaints. WCBOL did neither.
II.

Town Budget

On November 5, 2019, the Town held its general
election for the 2020-2021 term. Supervisor Belmont
was re-elected, and four other individuals were elected
to the Town Board. Supervisor Belmont serves as the
fifth and final member of the Town Board.
On November 7, 2019, Supervisor Belmont re­
leased the proposed Town budget for 2020, which pro­
posed the same salary for his position as he was paid
in 2019. But on November 20, 2019, Supervisor Bel­
mont allegedly updated the proposed budget to include
a nearly $30,000 pay increase for his position. On De­
cember 5, 2019, the five-member Town Board unani­
mously approved the proposed Town Budget, which
included the Supervisor’s salary increase.
On January 6, 2020, plaintiffs served the Town
Board with a petition, alleging violations of federal
and state law in connection with the Town Board’s
2 "ECF_” refers to page numbers automatically assigned by
the Court’s Electronic Case Filing system.

App. 12
approval of Supervisor Belmont’s salary increase. (Doc.
#2 at ECF 40-41). The petition demanded the Town
Board repeal and amend the Town budget, or other­
wise respond to the petition. The Town Board did not
respond to the petition, or repeal and amend the
budget.
III. Plaintiffs’ Claims
Plaintiffs allege nine causes of action: that (i)
WCBOL and Chairman Boykin violated L.L. 24-2000
by increasing WCBOL member compensation without
first obtaining an advisory opinion from CAB; (ii) L.L.
12294-2019 is inconsistent with and violates the New
York State Constitution; (iii) L.L. 12292-2019 is incon­
sistent with and violates the New York State Constitu­
tion; (iv) WCBOL and Chairman Boykin violated the
New York State Constitution by passing the above leg­
islation; (v) the Town’s 2020 budget is inconsistent
with and violates the New York State Constitution; (vi)
the Town Board and Supervisor Belmont violated the
New York State Constitution by approving the 2020
budget; (vii) all defendants violated the Guarantee
Clause of the U.S. Constitution; (viii) all defendants
violated the First Amendment by failing to respond to
plaintiffs’ petitions for redress; and (ix) all defendants
violated Section 801.2 of the New York Education
Law.

App. 13
DISCUSSION
I.

Legal Standards
A. Rule 12(b)(1)

“[F]ederal courts are courts of limited jurisdiction
and lack the power to disregard such limits as have
been imposed by the Constitution or Congress.” Durant.
Nichols. Houston. Hodgson & Cortese-Costa. P.C. v.
Dupont. 565 F.3d 56, 62 (2d Cir. 2009).3 “A case is
properly dismissed for lack of subject matter jurisdic­
tion under Rule 12(b)(1) when the district court lacks
the statutory or constitutional power to adjudicate it.”
Nike. Inc, v. Already. LLC. 663 F.3d 89, 94 (2d Cir.
2011). A court lacks the judicial power to hear a party’s
claims when the party does not have standing. Hillside
Metro Assocs.. LLC v. JPMorgan Chase Bank. Nat’l
Ass’n. 747 F.3d 44, 48 (2d Cir. 2014). The party invok­
ing the Court’s jurisdiction bears the burden of estab­
lishing, by a preponderance of the evidence, that
jurisdiction exists. Broidv Capital Mgmt. LLC v. Benomar.
944 F.3d 436, 443 (2d Cir. 2019).
When deciding whether subject matter jurisdic­
tion exists at the pleading stage, the Court “must ac­
cept as true all material facts alleged in the complaint.”
Convers v. Rossides. 558 F.3d 137, 143 (2d Cir. 2009).
“However, argumentative inferences favorable to the
party asserting jurisdiction should not be drawn.”
Budav v. N.Y. Yankees P’ship. 486 F. App’x 894, 895 (2d
Cir. 2012) (summary order). When a factual challenge
3 Unless otherwise indicated, case quotations omit all inter­
nal citations, quotations, footnotes, and alterations.

App. 14
to the Court’s jurisdiction has been raised, “the court
may resolve [any] disputed jurisdictional fact issues by
referring to evidence outside of the pleadings.” Zappia
Middle E. Constr, Co. v. Emirate ofAbu Dhabi. 215 F.3d
247, 253 (2d Cir. 2000).
When a defendant moves to dismiss for lack of
subject matter jurisdiction and on other grounds, the
court should resolve the Rule 12(b)(1) challenge first.
Rhulen Agency. Inc, v. Ala. Ins. Guar. Ass’n. 896 F.2d
674, 678 (2d Cir. 1990).
B. Rule 12(b)(6)
In deciding a Rule 12(b)(6) motion, the Court
evaluates the sufficiency of the operative complaint
under the “two-pronged approach” articulated by the
Supreme Court in Ashcroft v. Iqbal. 556 U.S. 662, 679
(2009). First, a plaintiff’s legal conclusions and
“[t]hreadbare recitals of the elements of a cause of ac­
tion, supported by mere conclusory statements,” are
not entitled to the assumption of truth and are thus
not sufficient to withstand a motion to dismiss, hh at
678; Hayden v. Paterson. 594 F.3d 150, 161 (2d Cir.
2010). Second, “[w]hen there are well-pleaded factual
allegations, a court should assume their veracity and
then determine whether they plausibly give rise to an
entitlement to relief.” Ashcroft v. Iqbal. 556 U.S. at 679.
To survive a Rule 12(b)(6) motion, the allegations
in the complaint must meet a standard of “plausibility.”
Ashcroft v. Iqbal. 556 U.S. at 678; Bell Atl. Corp. v.
Twomblv. 550 U.S. 544, 564 (2007). A claim is facially

App. 15
plausible “when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal. 556 U.S. at 678. “The plausibility
standard is not akin to a ‘probability requirement,’ but
it asks for more than a sheer possibility that a defen­
dant has acted unlawfully.” Id. (quoting Bell Atl. Corp.
v. Twomblv. 550 U.S. at 556).
In considering a motion to dismiss, “a district court
may consider the facts alleged in the complaint, docu­
ments attached to the complaint as exhibits, and docu­
ments incorporated by reference in the complaint.”
DiFolco v. MSNBC Cable L.L.C.. 622 F.3d 104, 111 (2d
Cir. 2010).
The Court must liberally construe submissions of
pro se litigants and interpret them “to raise the strong­
est arguments that they suggest.” Triestman v. FedBureau of Prisons. 470 F.3d 471,474 (2d Cir. 2006) (per
curiam). “Even in a pro se case, however, . . . thread­
bare recitals of the elements of a cause of action, sup­
ported by mere conclusory statements, do not suffice.”
Chavis v. Chappius. 618 F.3d 162, 170 (2d Cir. 2010).
Nor may the Court “invent factual allegations” a plain­
tiff has not pleaded. Id.
II.

Individual Defendants

Defendants argue plaintiffs’ claims against Chair­
man Boykin should be dismissed on grounds of legis­
lative immunity and qualified immunity, and
plaintiffs’ claims against Supervisor Belmont should

App. 16
be dismissed as duplicative of claims asserted against
the Town Board. In their opposition to defendants’ mo­
tions to dismiss, plaintiffs state they did not “inten[d]
to include Ben Boykin and Ron Belmont as additional
defendants, separate from the named governing enti­
ties.” (Doc. #26 (“Pis. Mem.”) at 13).‘
Accordingly, the Court dismisses plaintiffs’ claims
insofar as they are pleaded against Chairman Boykin
or Supervisor Belmont.
III. Subject Matter Jurisdiction
Defendants argue plaintiffs lack standing to bring
their claims, and thus the Court lacks subject matter
jurisdiction over such claims.
The Court agrees with respect to plaintiffs’ claims
against the Town Board, and that Schulz lacks stand­
ing to bring claims against WCBOL. However, the
Court disagrees with defendants as to Futia’s claims
against WCBOL.
A. Standing
“The ‘irreducible constitutional minimum’ of
standing in federal court requires: (1) ‘injury in fact’;
(2) that is ‘fairly traceable’ to a defendant’s challenged
conduct; and (3) that is ‘likely to be redressed’ by a
favorable decision.” Mejia v. Time Warner Cable Inc..
2017 WL 3278926, at *7 (S.D.N.Y. Aug. 1, 2017) (quot­
ing Luian v. Defs. of Wildlife. 504 U.S. 555, 560-61
(1992)). “To support standing, an injury must be both

App. 17
‘concrete and particularized.’ ” Id. (quoting Spokeo. Inc,
v. Robins. 136 S. Ct. 1540,1548 (2016)). “A ‘bare’ statu­
tory violation is insufficient to confer constitutional
standing absent some ‘concrete’ harm.” IcL (citing
Spokeo. Inc, v. Robins. 136 S. Ct. at 1549).
Beyond those constitutional requirements, there
are certain court-imposed limits to invoking the juris­
diction of the federal courts. Generally, a plaintiff may
assert only his own rights. Warth v. Seldin. 422 U.S.
490, 499 (1975) (“A federal court’s jurisdiction . . . can
be invoked only when the plaintiff himself has suffered
some threatened or actual injury resulting from the
putatively illegal action.”). Specifically, “[t]he plaintiff
must (1) be asserting [his] own legal rights, and not
those of a third party, (2) be asserting, in addition to a
redressable injury, a particularized grievance, and (3)
be asserting a claim that falls within that zone of in­
terests the statute aims to protect or regulate.” Golden
Hill Paugussett Tribe of Indians v. Weicker. 39 F.3d 51,
58 (2d Cir.1994).
B. Town Board
Plaintiffs cannot establish standing to maintain
their claims against the Town Board because they have
not suffered an injury in fact fairly traceable to the
Town Board’s approval of the 2020 budget.
As a preliminary matter, a plaintiff’s federal or
state taxpayer status generally is insufficient to estab­
lish Article III standing. See ASARCO Inc, v. Radish.
490 U.S. 605, 613 (1989) (citing Massachusetts v.

App. 18
Mellon. 262 U.S. 447, 487 (1923)) (“[Sluits premised on
federal taxpayer status are not cognizable in the fed­
eral courts because a taxpayer’s interest in the moneys
of the Treasury ... is shared with millions of others, is
comparatively minute and indeterminable,” and thus
provides “no basis . . . for judicial intervention.”); see
also DaimlerChrvsler Corp. v. Cuno. 547 U.S. 332, 345
(2006) (noting the “rationale for rejecting federal tax­
payer standing applies with undiminished force to
state taxpayers”).
However, a municipal taxpayer with a sufficiently
“direct and immediate” relationship with the munici­
pality has “standing to challenge allegedly unlawful
municipal expenditures” involving “measurable appro­
priation or loss of revenue.” Bd. of Educ. Mt. Sinai Un­
ion Free Sch. Dist. v. N.Y.S. Teachers Ret. Svs.. 60 F.3d
106,110-111 (2d Cir. 1995). Municipal taxpayer stand­
ing is not applicable, however, when the plaintiff is not
a taxpayer of the municipality against which his
claims are brought. See, e.g.. Altman v. Bedford Cent.
Sch. Dist.. 245 F.3d 49, 73-74 (2d Cir. 2001) (holding
plaintiffs who did not live in the school district lacked
standing to bring claims against the district); Gheta
v. Nassau Ctv. Cmtv. Coll.. 33 F. Supp. 2d 179, 183
(E.D.N.Y. 1999) (holding a plaintiff lacked standing
because she was “no longer a resident of” the munici­
pality).
Here, plaintiffs’ federal or state taxpayer status is
insufficient to establish standing to maintain claims

App. 19
against the Town Board.4 In addition, plaintiffs are not
Town residents, and do not plausibly allege a “direct
and immediate” relationship with the municipality.
See Bd. of Educ. Mt. Sinai Union Free Sch. Dist. v.
N.Y.S. Teachers Ret. Svs.. 60 F.3d at 110. Accordingly,
plaintiffs cannot demonstrate an injury in fact with
respect to the Town Board’s 2020 budget approval, and
therefore cannot meet the irreducible constitutional
minimum of standing in federal court with respect to
their claims against the Town Board. See Altman v.
Bedford Cent. Sch. Dist.. 245 F.3d at 73.
For the above reasons, plaintiffs lack standing to
maintain their claims against the Town Board, and
therefore such claims must be dismissed.5
C. WCBOL
Schulz cannot establish standing to maintain
claims against WCBOL because he is not a resident of
Westchester County and has not suffered an injury in
fact fairly traceable to L.L. 12992-2019 and L.L.
4 To the extent plaintiffs suggest they have standing because
“the Town of Harrison will receive State taxpayer funds from N.Y.
State in 2020 that will be co-mingled with Town-generated funds
in its general fund,” such allegation is conclusory and fails to es­
tablish standing. (See Compl. 1 32).
5 The Town Board also moves under Rule 12(b)(7) to dismiss
the complaint for failure to join a necessary party. (See Doc. #13
at 9) (“Because the Town Board is merely an administrative arm
of the Town that cannot sue or be sued, the Complaint against it
must be dismissed.”). However, because the Court is dismissing
plaintiffs’ claims against the Town Board, it need not separately
address the Rule 12(b)(7) argument.

App. 20
12994-2019. However, at this early stage of proceed­
ings, Westchester County resident Futia alleges an
injury fairly traceable to the legislation.
1. Schulz
Schulz is not a resident of Westchester County,
and does not allege a connection with Westchester
County or WCBOL sufficient to confer standing to
challenge WCBOL’s enactment of L.L. 12292-2019 and
L.L. 12294-2019, or WCBOL’s alleged failure to re­
spond to plaintiffs’ petition. Moreover, as with plain­
tiffs’ claims against the Town Board, Schulz cannot
rely on federal or state taxpayer status to establish
standing to maintain claims against WCBOL.6
Accordingly, Schulz lacks standing to maintain
claims against WCBOL.7
2. Futia
Futia resides in Westchester County and asserts
he is a “Westchester County taxpayer.” (Pis. Mem. at
11). He claims WCBOL improperly raised board
6 Here, again, plaintiffs cannot sufficiently demonstrate
standing by pleading in conclusory fashion that “Westchester
County will receive State taxpayer funds from N.Y. State in 2020
that will be co-mingled with [C]ounty-generated taxpayer funds
in its general fund.” (Compl. f 25).
7 Because Schulz lacks standing to maintain claims against
WCBOL and, as noted above, the Town Board, all of plaintiffs’
claims must be dismissed insofar as they are pleaded on behalf of
Schulz.

App. 21
member compensation without first having solicited
advice or a recommendation from CAB as to same.
At this stage of the proceedings, Futia’s claims
demonstrate an alleged “measurable appropriation or
loss of revenue” bearing on his direct and immediate
relationship with the municipality. See Bd. of Educ. Mt.
Sinai Union Free Sch. Dist. v. N.Y.S. Teachers Ret. Svs..
60 F.3d at 111. Accordingly, the Court declines to dis­
miss Futia’s claims for lack of subject matter jurisdic­
tion, and will assess whether Futia has plausibly
alleged any claims over which this Court has original
jurisdiction.
IV.

Guarantee Clause Claim8

Futia claims WCBOL’s enactment of L.L. 122922019 and L.L. 12294-2019 denied Futia his constitu­
tional right to a government republican in form, in
derogation of the Guarantee Clause of the U.S. Consti­
tution. WCBOL argues Futia fails plausibly to state
claim premised on WCBOL’s alleged violation of the
Guarantee Clause because such claim is nonjusticiable.
The Court agrees with WCBOL.

8 Courts have referred to Article IV, Section 4 of the U.S.
Constitution as both the “Guarantee Clause” and the “Guaranty
Clause.” See U.S. ex rel. Anti-Discrimination Ctr. of Metro N.Y..
Tnc. v. Westchester Countv. 712 F.3d 761, 775 (2d Cir. 2013);
Padavan v. United States. 82 F.3d 23, 28 (2d Cir. 1996).

App. 22
Article IV, Section 4 of the U.S. Constitution pro­
vides in pertinent part: “The United States shall guar­
antee to every State in this Union a Republican Form
of Government.”
“Although it is ‘the province and duty of the judi­
cial department to say what the law is,’ there are in­
stances where ‘the judicial department has no business
entertaining the claim of unlawfulness—because the
question is entrusted to one of the political branches or
involves no judicially enforceable rights’; such a claim
‘is said to present a “political question” and to be nonjusticiable—outside the courts’ competence and there­
fore beyond the courts’ jurisdiction.’” Schulz v. New
York. 2019 WL 3975670, at *5 (N.D.N.Y. Aug. 22, 2019)
(quoting Rucho v. Common Cause. 139 S. Ct. 2484,
2494 (2019)).
Challenges to state action premised on violations
of the Guarantee Clause traditionally present nonjusticiable political questions. Rucho v. Common Cause.
139 S. Ct. at 2506 (“The Court has several times con­
cluded . . . that the Guarantee Clause does not provide
the basis for a justiciable claim.”); see also Baker v.
Carr. 369 U.S. 186, 228-29 (1962). Moreover, the Sec­
ond Circuit has concluded a challenge under the Guar­
antee Clause to certain municipal conduct presents a
nonjusticiable issue when the “residents of the County
remain able to choose their own officers and pass their
own laws.” U.S. ex rel. Anti-Discrimination Ctr. of
Metro N.Y., Inc, v. Westchester Countv. 712 F.3d at 775.

App. 23
Futia fails plausibly to state a justiciable Guaran­
tee Clause claim. He fails adequately to allege voters
of Westchester County were, or continue to be, de­
prived of their ability to choose their own representa­
tives and pass their own laws, and thus have been
deprived of a government republican in form. Simply .
put, his distaste for certain legislation, alone, does not
give rise to a justiciable constitutional claim. Further,
“while it is possible that ‘perhaps not all claims under
the Guarantee Clause present nonjusticiable political
questions,’” Padavan v. United States. 82 F.3d at 28
(quoting New York v. United States. 505 U.S. 144, 185
(1992)), the complaint in this action is devoid of any
indicia of a justiciable Guarantee Clause claim.
Accordingly, Futia’s Guarantee Clause claim must
be dismissed.
V.

First Amendment Claim

WCBOL argues Futia fails plausibly to allege a
First Amendment claim because the constitutional
right to petition the government does not include a
right to a response.
The Court agrees.
“The First Amendment protects a right to . . . peti­
tion the government for the redress of grievances.”
Avala-Rosario v. Westchester County. 2020 WL 3618190,
*5 (S.D.N.Y. July 2, 2020).
However, [t]he right to petition in general guaran­
tees only that individuals have a right to communicate

App. 24
directly to government officials. ... It does not guaran­
tee, as plaintiff contends, . . . that an elected official
will necessarily act a certain way or respond in a cer­
tain manner to requests from his constituents.” Kittav
v. Giuliani. 112 F. Supp. 2d 342, 354 (S.D.N.Y. 2000)
(citing Minn. State Bd. for Cmtv. Colls, v. Knight. 465
U.S. 271, 285 (1984)). Indeed, “[n]othing in the First
Amendment or in [the Supreme] Court’s case law in­
terpreting it suggests that the rights to speak, associ­
ate, and petition require government policymakers to
listen or respond to individuals’ communications on
public issues.” Minn. State Bd. for Cmtv. Colls, v.
Knight. 465 U.S. at 285; see also Smith v. Ark. State
Highway Emps.. Local 1315. 441 U.S. 463, 465 (1979)
(noting “the First Amendment does not impose any af­
firmative obligation on the government to listen, [or] to
respond.”).
Here, Futia exercised his right to petition WCBOL
to redress his grievances when, on December 3, 2019,
he spoke out at a public hearing respecting L.L. 122922019 and L.L. 12294-2019, and again on January 6,
2020, when he submitted a written petition to WCBOL.
As Futia “does not allege [WCBOL] prevented him
from communicating any grievance,” see Kittav v. Giu­
liani. 112 F. Supp. 2d at 354, he fails plausibly to allege
WCBOL violated his constitutional right to petition
the government.
Accordingly, Futia’s First Amendment claim must
be dismissed.

App. 25
VI. State Law Claims
A district court may decline to exercise supple­
mental jurisdiction over state law claims when it “has
dismissed all claims over which it has original jurisdic­
tion.” 28 U.S.C. § 1367(c)(3); Kolari v. New York-Presbvterian Hosp.. 455 F.3d 118,122 (2d Cir. 2006).
Having dismissed the federal claims over which
the Court has original jurisdiction, the Court declines
to exercise its supplemental jurisdiction over Schulz’s
and Futia’s state law claims.
VII.

Leave to Amend

Rule 15(a)(2) of the Federal Rules of Civil Proce­
dure instructs that courts “should freely give leave” to
amend a complaint “when justice so requires.” Liberal
application of Rule 15(a) is warranted with respect to
pro se litigants, who “should be afforded every reason­
able opportunity to demonstrate that [they have] a
valid claim.” Matima v. Celli. 228 F.3d 68, 81 (2d Cir.
2000). District courts “should not dismiss [a pro se
complaint] without granting leave to amend at least
once when a liberal reading of the complaint gives any
indication that a valid claim might be stated.” Cuoco v.
Moritsusm. 222 F.3d 99,112 (2d Cir. 2000).
However, leave to amend may “properly be denied
for . . . ‘futility of amendment.’ ” Ruotolo v. City of New
York. 514 F.3d 184, 191 (2d Cir. 2008) (quoting Foman
v. Davis. 371 U.S. 178, 182 (1962)). This is true even
when a plaintiff is proceeding pro se. See Terry v. In­
corporated Village of Patchogue. 826 F.3d 631, 633 (2d

App. 26
Cir. 2016). An amendment to a pleading is futile if the
Court would lack subject matter jurisdiction over the
proposed claim, see Mortimer Off Shore Serves. Ltd., v.
Federal Republic of Germany. 615 F.3d 97, 99 (2d Cir.
2010), cert, denied. 562 U.S. 1249 (2011), or “if the pro­
posed claim could not withstand a motion to dismiss
pursuant to [Rule] 12(b)(6).” Lucente v. Int’l Bus.
Machs. Corp.. 310 F.3d 243, 258 (2d Cir. 2002).
Here, plaintiffs’ submissions, even liberally con­
strued, contain no allegations suggesting plaintiffs
have actionable claims against defendants that plain­
tiffs “inadequately or inartfully pleaded” and “should
therefore be given a chance to reframe.” See Cuoco v.
Moritsugu. 222 F.3d at 112. The problems with plain­
tiffs’ federal claims are substantive, and better plead­
ing will not cure them. For these reasons, amendment
would be futile.
CONCLUSION
The motions to dismiss are GRANTED.
The Clerk is instructed to terminate the motions
(Docs. ##11,15) and close this case.
Dated: August 6, 2020
White Plains, NY
SO ORDERED:
/s/ Vincent L. Briccetti________
Vincent L. Briccetti
United States District Judge

App. 27
APPENDIX C
Sec. 570.2. - Compensation Advisory Board.
1.
There shall be a Compensation Advisory Board con­
sisting of seven members. Two members shad Be ap­
pointed by the Majority Leader of the County Board of
Legislators; two members shah be appointed by the mi­
nority Leader of the County Board of Legislators; and
three members shall be appointed by the Chair of the
County Board of Legislators, one of whom shall be des­
ignated by the Chair of the County Board of Legisla­
tors as the Chair of the Compensation Advisory Board.
All Appointments shall be subject to confirmation by
the County Board of Legislators. All appointments
shall be made following the organizational meeting of
the County Board of Legislators in January of evennumbered years. All members shall serve from the
date of appointment to April 30th of the year in which
the appointment was made.
The Compensation Advisory Board shall advise the
Board of Legislators whether any changes or adjust­
ments to the compensation paid to members of the
Board of Legislators in warranted. If the Compensa­
tion Advisory Board recommends that there be
changes or adjustments to the compensation paid to
members of the Board of Legislators, then the Compen­
sation Advisory Board shall recommend the amount of
compensation for all members of the Board of Legisla­
tors, including leadership stipends, if any, provided to

App. 28
the Board Chair, Vice-Chair, Majority and Minority
leaders and whips, and chairs of committees.
The Compensation Advisory Board shall meet
promptly after a majority of its members have been ap­
pointed and shall meet thereafter as frequently as nec­
essary to accomplish the work of the board.
The Compensation Advisory Board shall submit in
writing its recommendations regarding whether any
compensation changes or adjustments are warranted
and the recommended rates of compensation, if appro­
priate, to the Board of Legislators, no later than April
30th of each even-numbered year.
The members of the Compensation Advisory Board
shall serve without compensation but shall be entitled
to receive all reasonable expenses actually incurred in
the performance of their duties.
(Added by L.L. No. 24-20001)

1 Section 2 of this local law was amended 5-10-2010 by L.L.
No. 2-2010 to provide that the law shall take effect 1-1-2001, but
shall not be effective during the year 2010, and was amended 416-12 by L.L. No. 8-2012 to provide, that it shall not be effective
during the year 2012.

App. 29
APPENDIX D
PETITION TO THE MEMBERS OF THE
BOARD OF LEGISLATORS OF WESTCHESTER
COUNTY, NEW YORK FOR REDRESS OF
VIOLATIONS OF ARTICLE IX OF THE
NEW YORK STATE CONSTITUTION
AND EXISTING LAW
A. Facts Material to this Petition for Redress
1.

The Westchester County Board of Legislators is
comprised of seventeen members who are elected
at a general election every two-years.

2.

The 2018-2019 Westchester County Board of Leg­
islators violated existing law by not convening and
appointing members to the “Westchester County
Compensation Advisory Board” in January of
2018.

3.

On November 5, 2019, seventeen men and women
were elected to the Westchester County Board of
Legislators for the 2020-2021 term.

4.

On November 18, 2019, by unanimous vote, the
County Board of Legislators adopted Resolution
2019-231, scheduling a public hearing on Decem­
ber 3,2019 on a proposed Local Law Intro No.__ 2019 entitled, “A LOCAL LAW subject to a permis­
sive referendum to provide for payments of in­
creased compensation for officers appointed for a
fixed term and elective officers during their term
of office.”

5.

On November 18, 2019, by unanimous vote, the
County Board of Legislators adopted Resolution
2019-232, scheduling a public hearing on

App. 30
December 3,2019 on Local Law Intro No.
-2019
entitled, “A LOCAL LAW . . . regarding Compen­
sation of the Members of the County Board of Leg­
islators.”
6.

On December 3, 2019, the County Board of Legis­
lators held a public hearing on said proposed Local
Laws, during which Mr. Anthony Futia Jr. spoke
in opposition.

7.

On December 9, 2019, the County Board of Legis­
lators adopted Local Law 12294-2019 entitled “A
LOCAL LAW . . . regarding Compensation of the
Members of the County Board of Legislators,”
which increased the compensation of each member
of the Board of Legislators “with respect the term
for which he or she shall have been elected.” See
Exhibit A.

8.

On December 9, 2019, the County Board of Legis­
lators adopted Local Law 12292-2019 entitled, “A
LOCAL LAW subject to a permissive referendum
to provide for payments of increased compensation
for officers appointed fixed term and elective offic­
ers during their term of office,” which increased
the compensation of appointed and elective offic­
ers “with respect to, the term for which he or she
shall have been elected.” See Exhibit B.

9.

Local Laws 12292-2019 and 12294-2019 violate
Article IX, Section 2(c)(1) of the New York State
Constitution which prohibits the Board of Legisla­
tors from adopting local laws that are “incon­
sistent” with any provision of the New York State
Constitution, including Article III, Section 6 which
reads in part, “Neither the salary of any member
nor any other allowance so fixed may be increased

App. 31
or diminished during, and with respect to, the
term for which he or she shall have been elected,
nor shall he or she be paid or receive any other ex­
tra compensation.”
10. Westchester County will receive funds from N.Y.
State in 2020 that will be co-mingled with county
generated funds in its general fund.
11. Article IV, Section 4 of the United States Constitu­
tion guarantees the People of the State of New
York a “Republican Form of Government.”
12. The Petition clauses of the United States Consti­
tution (Bill of Rights. Amendment) and New York
State Constitution (Bill of Rights, Section 9) obli­
gate the Government, including the Executive and
Legislative, to provide a meaningful response to a
Petition for Redress of its violation of the Rule of
Law, including the State and Federal Constitu­
tions and laws pursuant thereto.
B. Relief Requested
Pursuant to the historical scope and purpose of the Pe­
tition Clause of the First Amendment to the Constitu­
tion for the United States of America and Article I,
Section 9 of the Constitution for the State of New York,
the Westchester County Board of Legislators is re­
quested to immediately respond to this Petition for Re­
dress by either repealing Local Law 12292-2019 and
Local Law 12294-2019 or by providing the undersigned
with a written document in which it proves petitioners’
facts wrong by argument or evidence, in which case the
Coo requested to refrain from providing increases in

App. 32
compensation pursuant to Local 12292-2019 and Local
Law 12294-2019 until the grievance is redressed.
Dated: January 6, 2020
/s/ Anthony Futia, Jr.
Anthony Futia, Jr.
34 Custis Ave.
N. White Plains, NY
10603

/s/ Robert L. Schulz_____
Robert L. Schulz
2458 Ridge Road
Queensbury, NY 12804

App. 33
NEW YORK STATE CONSTITUTION
ARTICLE I: Bill of Rights
§9.1. No law shall be passed abridging the rights of the
people ... to petition the government.
ARTICLE IX: Local Governments
§2. (c) In addition to powers granted in the statute of
local governments or any other law. (i) every local gov­
ernment shall have power to adopt and amend local
laws not inconsistent with the provisions of this
constitution or any general law relating to its prop­
erty, affairs or government and, (ii) every local govern­
ment shall have power to adopt and amend local laws
not inconsistent with the provisions of this con­
stitution or any general law relating to the following
subjects, whether or not they relate to the property, af­
fairs or government of such local government, except
to the extent that the legislature shall restrict the
adoption of such a local law relating to other than the
property, affairs or government of such local govern­
ment: (emphasis added).
(1) The powers, duties, qualifications, number, mode of
selection and removal, terms of office, compensation,
hours of work, protection, welfare and safety of its of­
ficers and employees, except that cities and towns shall
not have such power with respect to members of the
legislative body of the county in their capacities as
county officers, (emphasis added).

App. 34
ARTICLE III: Legislature,; ^ t

X<S fX .- '.ierb litnr
[§6. Each member of the legislature shall'receiverfbr
his or her services a like annual salary, to be fixed by
law. He or she^shan also be reimlsursed'for his or her
, actual; traveling expenses in gbing ,to. and returning
from the'placeiri Which the legisiature'meets,'hot more
fthan once eacli week while the legislature's in session.
Senators, when.the; senate alone is convened in extraordinary session,' or When 'serving'as' members of
l&e'cburt for, the trial of impeachmehCs^and^such'memhers of the assembly,' nbt^exceeding nine in'numbeiyas
shall hhap^inteli managers'bf an impeachment^ shall
receive an additional per diem allowance, to be fixed by
law. Any member, while serving as-an-officer of his or
her house or in any other special capacity therein or
directly connected therewith, not hereinbefore in this
section specified, may,also be paid and receive, in ad­
dition, any allowance which may be fixed by law for the
particular and additional services appertaining to or
entailed by such office or special'capacity Neither the
salary of any member nor any other allowance
so fixed may be increased or diminished during,
and with respect to, the term for which he or she
shall have been elected, nor shall he or she be
paid or receive any other extra compensation.
The provisions of this section and laws enacted in com­
pliance therewith shall govern and be exclusively con­
trolling, according to their terms. Members shall
continue to receive such salary and additional allow­
ance as heretofore fixed and provided in this section,

App. 37
EXHIBIT A
LOCAL LAW INTRO NO. 12294-2019
f A LOCAL LAW <to / Amend Section
.209:41 of the Laws of.Westchester
County regarding Compensation of
the Members of the County Board
of Legislators4 ‘ i
BE IT ENACTED by the’County Board of the County
of Westchester as follows:
Sectiori 1. Subdivision I of Section 209.41 of the
Laws of Westchester ..County,,is , hereby .amended to
........................"
i~

...

\T't

. A

V.-' - .

’ ' •ll 1 ‘Each iriembef "shall receive,’ as;eompeiisatidn
to . i -for'hisioriherrservices asTcounty legislatbrfia
•salary of [$49,200100] $75.000:00 per annum,
- :iutV tOjbe paid by the Commissioner qf-Finance as
other county salaries are paid.*No cpuntyrlegislator shall receive any other or greater sum
■ for his services"except as may be provided ei­
ther by the County Charter or this chapter.2.The Chairman of the County Board may
be paid such additional amounts as compen­
sation for his services while acting in such ca­
pacity and while acting as a member of the
Board of Acquisition and Contract as the
County Board shall determine.3.The Vice
Chairman, the majority and minority leaders,
the majority and minority whips, the chairs of
each special committee and the chairs of each
standing committee of the County Board may
be paid an additional amount as compensa­
tion for their services while acting in such

App. 38
capacity as the County Board shall deter­
mined.Such additional amounts paid to the
Chairman and Vice Chairman of the County
Board, to the majority and minority leaders
and to the chairman of each standing and spe­
cial committee shall be in addition to any and
all committee fees they are entitled to pursu­
ant to law.
Section 2. This Local Law shall take effect January 1,
2020.

App. 39
EXHIBIT B
LOCAL LAW INTRO NO. 12292-2019
A LOCAL LAW subject to a per­
missive referendum to provide for
payments of increased compensa­
tion for officers appointed for a
fixed term and elective officers dur­
ing their term of office.
I

BE IT ENACTED by the County Board of the County
of Westchester as follows:
Section I. The salary plan as amended by the Act
that has been adopted recently (a copy of which is an­
nexed hereto and incorporated herein by reference) is
hereby made applicable to officers appointed for a fixed
term and elective officers during their term of office.
Section 2. This local law shall be implemented in
accordance with the aforementioned Act.
Section 3. The Clerk of the Board shall cause a no­
tice of this local law to be published at least once a
week for two successive weeks, the first publication of
which shall be had within ten days after such local law
is adopted in one or more newspapers published in the
County of Westchester, selected by the Clerk for that
purpose. Said notice shall contain the number, date of
adoption and a true copy of this local law and a state­
ment that so much of this local law that increases the
salary of: (1) officers appointed for a fixed term during
the term of office of such officer is subject to a permis­
sive referendum pursuant to the provisions of Section

App. 40
24, subdivision 2, clause h of New York Municipal
Home Rule Law, and (2) elected officers during their
term of office is subject to a permissive referendum
pursuant to Sections 209.171(8) and 209.181 of the
Laws of Westchester County.
Section 4. This local law shall take effect forty-five
days after its adoption insofar as it applies to officers
appointed for a fixed term, provided however that this
local law shall take effect sixty days after its adoption
insofar as it applies to elected officials.

App. 41

ACT 237 - 2019
AN ACT amending Act No. 264952 as amended, which
amended Act No. 40-1941, entitled “An Act establish­
ing personnel rules in Westchester County service and
adopting classification of positions and schedules of
pay.”

BE IT ENACTED by the Board of Legislators of the
County of Westchester as follows:
Section 1. SCHEDULE “A” Allocation of Titles of Po­
sitions to Job Groups, appended to Act No. 26-1952, as
heretofore amended, is hereby further amended by de­
leting the following titles from the Job Groups indi­
cated:

JOB GROUP I
JOB GROUP II
JOB GROUP III
JOB GROUP IV
JOB GROUP V
JOB GROUP VI
JOB GROUP VII
JOB GROUP VIII
JOB GROUP IX

NONE
NONE
NONE
NONE
NONE
NONE
NONE
NONE
NONE

App. 42
JOB GROUP X

Code Enforcement Officer
(Schedule B-l)

JOB GROUP XI

NONE

JOB GROUP XII

NONE

JOB GROUP XIII

NONE

JOB GROUP XIV

NONE

JOB GROUP XV

Deputy Director of Consumer
Protection and Sealer of
Weights and Measures
(Schedule B-4)
Chairman-Westchester County
Taxi & Limousine Commission
(Schedule B4)

JOB GROUP XVI

Deputy Commissioner of
Elections (Schedule B-4)
Director of Consumer Protection
(Schedule B-4)
Director of Tourism (Schedule
B-4)
Director - Youth Bureau
(Schedule B-4)

JOB GROUP XVII

First Deputy Commissioner of
Finance (Schedule B-4)
Deputy Chief Information
Officer (Schedule B-4)
Deputy Commissioner of
Planning (Schedule B-4)
Deputy Commissioner of
Public Works & Transportation
(Schedule B-4)

App. 43
JOB GROUP XVIII Deputy Budget Director
(Schedule B-4)
First Deputy Commissioner of
Public Works & Transportation
(Schedule B-4)
First Deputy Commissioner of
Social Services (Schedule B-4)

JOB GROUP XIX
JOB GROUP XX

NONE
NONE

Section 2. SCHEDULE “A” Allocation of Titles of Po­
sitions to Job Groups, appended to ACT No. 26-192, as
heretofore amended, is hereby further amended by
adding the following titles to the Job Groups indicated:

JOB GROUP I
JOB GROUP II
JOB GROUP III
JOB GROUP IV
JOB GROUP V
JOB GROUP VI

NONE
NONE
NONE
NONE
NONE

JOB GROUP VII

NONE

JOB GROUP VIII

Emergency Communication
Specialist I (Schedule B-l)

JOB GROUP IX

Emergency Communication
Specialist II (Schedule B-l)
Secretary to the Director of
Consumer Protection (Schedule
B-l)

Emergency Communication
Specialist Trainee (Schedule B-l)

App. 44
Secretary to the Executive
Director of the Solid Waste
Commission (Schedule B-l)
Secretary to the Executive
Director of the Human Rights
Commission (Schedule B-l)
Secretary to the Executive
Director of the Tax Commission
(Schedule B-l)

JOB GROUP X
JOB GROUP XI
JOB GROUP XII

NONE
NONE
Assistant to Commissioner
(Group of Classes) (Schedule B-4)

JOB GROUP XIII

NONE

JOB GROUP XIV

Code Enforcement Officer
(Schedule B-l)

JOB GROUP XV

NONE

JOB GROUP XVI

NONE

JOB GROUP XVII

Deputy Director of Consumer
Protection and Sealer of
Weights and Measures
(Schedule B-4)

JOB GROUP XVIII Chairman-Westchester County
Taxi & Limousine Commission
(Schedule B-4)
Deputy Chief Information
Officer (Schedule B-4)
Deputy Commissioner of
Elections (Schedule B-4)
Deputy Commissioner of

App. 45
Planning (Schedule B-4)
Deputy Commissioner of
Public Works & Transportation
(Schedule B-4) Chief Adminis­
trator-Probation (Schedule B-4)
Director of Tourism
(Schedule B-4)
Director Youth Bureau
(Schedule B-4)
First Deputy Commissioner of
Finance (Schedule B-4)
JOB GROUP XIX

JOB GROUP XX

Deputy Budget Director
(Schedule B-4)
Director of Consumer Protection
(Schedule B-4)
First Deputy Commissioner of
Corrections (Schedule B-4)
First Deputy Commissioner of
Environmental Facilities
(Schedule B-4)
First Deputy Commissioner of
Public Works & Transportation
(Schedule B-4)
First Deputy Commissioner of
Social Services (Schedule B-4)
Senior Assistant to County
Executive III (Schedule B-4)
NONE

Section 3. Subject to any restriction imposed by law,
Schedule B-4 Salary Plan titles and rates or pay for
positions covered by the Non-Represented Manage­
ment Salary Plan appended to Act No. 26-1952 as here­
tofore amended, is hereby further amended to read as
follows:

Schedule “B”: Positions covered by the
Non-Represented/Management Salary Plan
Schedule B-4
Effective January 1,2019
Group
E10
Ell
E12
E13
E14
E15
E16
E17
E18
E19

$
$
$
$
$
$
$
$
$
$

1
58,800.00
62,880.00
69,830.00
77,390.00
85,640.00
94,905.00
103,565.00
111,600.00
120,350.00
129,550.00

$
$
$
$
$
$
$
$
$
$

2
62,395.00
69,715.00
75 650 00
83,740.00
92,730.00
102,020.00
110,990.00
119,510.00
129,305.00
139,015.00

$
$
$
$
$
$
$
$
$
$

3
65,960.00
73,185.00
81,475.00
90,150.00
99,560.00
108,735.00
118,430.00
127,445.00
137,745.00
148,015.00
\

$
$
$
$
$
$
$
$
$
$

4
69,550.001
78,290.00
87,285.001
96,520.00
105,600.00
115,435.001
125,845.00
135,070.00
145,860.00
156,885.00

5
$ 73,125.00
$ 83,500.00
$ 93,090.00
$102,215.00
$111,690.00
$122,110.00
$133,240.00
$142,380.00
$153,700.00
$165,730.00

>

•u
05

Schedule B-4
Effective January 1,2020
Group
E10
Ell
E12
E13
E14
E15
E16
E17
E18
E19

1

$
$
$
$
$
$
$
$
$
$

65,860.00
70,430.00
78,215.00
86,695.00
95,930.00
106,295.00
116,005.00
124,285.00
135,315.00
146,930.00

3

2

$
$
$
$
$
$
$
$
$
$

69,890.00
78,085.00
84,735.00
93,795.00
103,870.00
114,275.00
124,320.00
134,250.00
146,605.00
158,860.00

$
$
$
$
$
$
$
$
$
$

73,875.00
81,975.00
91,260.00
100,970.00
111,515.00
121,800.00
132,645.00
144,275.00
157,260.00
170,225.00

$
$
$
$
$
$
$
$
$
$

4

5

77,915.00
87,685.00
97,780.00
108,120.00
118,285.00
129,290.00
140,950.00
153,890.00
167,490.00
181,415.00

$ 81,910.00
$ 93,535.00
$104,270.00
$114,490.00
$125,100.00
$136;775.00
$149,240.00
$163,100.00
$177,385:00
$192,560.00

>

Xi

App. 48
Section 4. Pursuant to Section 4 of Act No. 85-1988,
the positions covered by the District Attorney Salary
Plan (Schedule B-10) are increased as follows:
District Attorney Salary Plan
Effective January 1, 2019
Group
Junior Assistant
District Attorney
Assistant District
Attorney
Senior Assistant
District Attorney
Deputy Chief of BureauDistrict Attorney
Chief Bureau-District

Minimum

Maximum

$ 65,132.00 $ 72,988.00
$ 80,165.00 $ 120,767.00
$ 119,520.00 $ 124,677.00
$ 129,702.00 $ 145,448.00

$ 153,925.00 $ 163,040.00
Deputy District Attorney $ 157,650.00 $ 165,580.00
Attorney

Second Deputy District
Attorney
$ 168,557.00 $ 173,605.00
First Deputy District
_____ Attorney_____ $ 175,966.00 $ 184,083.00
District Attorney Salary Plan
Effective January 1, 2020
Group
Junior Assistant
District Attorney
Assistant District
Attorney
Senior Assistant
District Attorney

Minimum

Maximum

$ 68,389.00 $ 76,637.00
$ 84,173.00 $ 126,805.00
$ 125,496.00 $ 130,911.00

App. 49
Deputy Chief of BureauDistrict Attorney
$ 136,187.00 $ 152,720.00
Chief of Bureau-District

$ 161,621.00 $ 171,192.00
Deputy District Attorney $ 165,533.00 $ 173,859.00
Attorney

Second Deputy District
Attorney
$ 176,985.00 $ 182,285.00
First Deputy District
_____ Attorney_____ $ 184,764.00 $ 193,287.00
Section 5. SCHEDULE “C” Titles and rates of pay for
positions not allocated to job Groups. Appended to Act
No. 26-1952 as amended by Act No. 215-1999 is hereby
further amended by
Deleting:
County Legislator

$49,200 annually

Adding (Effective Janu- $75,000 annually
ary 1, 2020):
County Legislators
Section 6. SCHEDULE “C” Titles and rates of pay for
positions not allocated to Job Groups. Appended to Act
No. 26-1952 as amended by Acts No. 6-1974, No. 651995, No. 18-1999, and No. 264-2005 is hereby further
amended by deleting any existing stipends for the
Board of Legislators and adding the following, effec­
tive January 1,2020:
Chairman
Vice Chairman
Majority Leader
Minority Leader
Majority Whip

$45,000 per annum
$12,000 per annum
$12,000 per annum
$12,000 per annum
$6,000 per annum

App. 50
Minority Whip
Budget & Appropriations
Chair
Legislation Chair
Committee Chair

$6,000 per annum
$12,000 per annum

$12,000 per annum
$3,000-$6,000 per
annum
Special Committee Chairs $2,500-$4,000 per
annum

Section 7. SCHEDULE “C” Titles and rates of pay for
positions not allocated to Job Groups. Appended to Act
No. 26-1952, as heretofore amended, is hereby further
amended by adding:
Annual Flat Rates
Not to Exceed:

Budget Director
Chief Advisor to the County
Executive
Chief Information Officer
Commissioner Community
Mental Health
Commissioner of Correction
Commissioner of Elections
Commissioner of Emergency
Services
Commissioner of Environ­
mental Facilities
Commissioner of Finance
Commissioner of Health

Effective
1/1/2019

Effective
1/1/2020

$175,000

$195,000

$175,000
$175,000

$195,000
$195,000

$175,000
$175,000
$175,000

$195,000
$195,000
$195,000

$175,000

$195,000

$175,000
$175,000
$210,000

$195,000
$195,000
$230,000

App. 51
Commissioner of Human
$175,000
Resources
Commissioner of Parks
Recreation & Conservation $175,000
Commissioner of Planning $175,000
Commissioner of Public$175,000
Works & Transportation
Commissioner of Social
$175,000
Services
Commissioner of Senior
Programs& Services
$175,000
Commissioner/Sheriff
$205,000
Commissioner of Probation $175,000
County Attorney
$175,000
$175,000
County Clerk
County Executive ($160,760) No Increase
Director of Communications $175,000
Director of Economic
Development
$175,000
$175,000
Director of Real Estate
Deputy County Executive
$177,125
Pathologist-Deputy Medical
Examiner
$210,000
Pathologist - Medical
Examiner
$225,000

$195,000

$195,000
$195,000
$195000
$195,000
$195,000
$225,000
$195,000
$195,000
$195,000
No Increase
$195,000

$195,000
$195,000
$197,125
$230,000
$245,000

Section 8. SCHEDULE “C” Allocation of Titles of Po­
sitions to Job Groups, appended to Act No. 26-1952,
as heretofore amended, is hereby further amended by
deleting the following titles:

App. 52
Pathologist

Flat Rate Not to
Exceed $480/day

EMD Certification stipend
$2500 annually
(For the Communication Operator and Senior
Communication Operator titles in the Depart­
ment of Emergency Services)
Section 9. SCHEDULE “C” Allocation of Titles of Po­
sitions to Job Groups, appended to ACT No. 26-1952,
as heretofore amended, is hereby further amended by
adding the following title:
Effective January 1, 2020
Pathologist I
Flat Rate Not to Exceed
$ 1500/case or $500 for 24-hour
on-call assignment
Section 10. The salary of any individual may not in­
crease more than $10,000 in any one year, exclusive of
any change in pay grade and/or any generic salary plan
increase.
Section 11. To implement the revisions and amend­
ments to the pay plan incorporated in this Act trans­
fers of appropriations between general classifications
of expenditures within the same department are
hereby authorized upon the recommendation of the
Budget Director and the authorization of the County
Executive, and transfers of appropriations between de­
partments are hereby authorized upon the recommen­
dation of the County Executive.
Section 12. Unless otherwise noted herein, this Act
shall take effect on January 1, 2019, and to the extent

App. 53
that this Act authorizes the increase of compensation
of officers appointed for a fixed term and the increase
of the compensation of elected officials, those provi­
sions shall not take effect during their current term of
office unless and until such an increase is authorized
by a local law subject to a permissive referendum as
follows: (1) for officers appointed for a fixed term to re­
ceive an increase during the current term of office of
such officer, a permissive referendum pursuant to the
provisions of Section 24, subdivision 2, clause h of New
York Municipal Home Rule Law, and (2) for elected of­
ficers to receive an increase during their current term
of office, a permissive referendum pursuant to Sections
209.171(8) and 209.181 of the Laws of Westchester
County.

STATE OF NEW YORK

)
) ss.
WESTCHESTER COUNTY )
I HEREBY CERTIFY that I have compared the
foregoing Act, Act No. 237 - 2019, with the original on
file in my office, and that the same is a correct tran­
script therefrom, and of the whole, of the said original
Act, which was duly adopted by the County Board of
Legislators, of the County of Westchester on November
18, 2019, and deemed approved without the County
Executive’s signature in accordance with Section
107.71 of the Westchester County Charter.

App. 54
IN WITNESS WHEREOF, I have
hereunto set my hand and affixed
the Corporate Seal of said County
Board of Legislators on this 27th
day of November, 2019.
/s/ Malika Vanderberg
Malika Vanderberg
The Clerk of the Westchester
County Board of Legislators
County of Westchester,
New York
[SEAL]

App. 55
APPENDIX E
PETITION TO THE MEMBERS OF THE
TOWN BOARD OF THE TOWN OF HARRISON,
NEW YORK FOR REDRESS OF
VIOLATION OF ARTICLE IX OF THE
NEW YORK STATE CONSTITUTION
A. Facts Material to this Petition for Redress
1.

On November 5,2019, Ron Belmont was elected to
a two year term as Supervisor of the Town of Har­
rison.

2.

On November 7, 2019, Supervisor Belmont re­
leased his proposed budget for 2020 which in­
cluded the same salary he had for 2019.

3.

On November 20, 2019, Supervisor Belmont
amended the budget for 2020 to include a nearly
$30,000 pay raise for the Town Supervisor.

4.

On December 5. 2019 the amended budget was
adopted as law by a vote, of the Town Board.

5.

The amended budget violates Article IX, Section
2(c)(1) of the New York State Constitution which
prohibits the Board from adopting a local law that
is “inconsistent” with any provision of the New
York State Constitution, including Article III, Sec­
tion 6 which reads in part, “Neither the salary of
any member nor any other allowance so fixed may
be increased or diminished during, and with re­
spect to, the term for which he or she shall have
been elected, nor shall he or she be paid or receive
any other extra compensation.”

App. 56
6.

The Town of Harrison will receive funds from N.Y.
State in 2020 that will be co-mingled with Town­
generated funds in its general fund.

7.

Article IV, Section 4 of the United States Constitu­
tion guarantees the People of the State of New
York a “Republican Form of Government.”

8.

The Petition clauses of the United States Consti­
tution (Bill of Rights, First Amendment) and New
York State Constitution (Bill of Rights, Section 9)
obligate the Government, including the Executive
and Legislative, to provide a meaningful response
to a Petition for Redress of its violation of the Rule
of Law, including the State and Federal Constitu­
tions and laws pursuant thereto.
Relief Requested

<

Pursuant to the historical scope and purpose of the Pe­
tition Clause of the First Amendment to the Constitu­
tion for the United States of America and Article I.
Section 9 of the Constitution for the State of New York,
the Harrison Town Board is requested to immediately
respond to this Petition for Redress by either repealing
and amending the Budget to restore the compensation
of the Supervisor to its 2019 amount or by providing
the undersigned with a written document in which it
proves petitioners’ facts wrong by argument or evi­
dence, in which case the Town is requested to refrain
from providing the increase in compensation until the
grievance is redressed.

App. 57
Dated: January 6, 2020
/s/ Anthony Futia, Jr.
Anthony Futia, Jr.
34 Custis Ave.
N. White Plains, NY
10603

/s/ Robert L. Schulz_____
Robert L. Schulz
2458 Ridge Road
Queensbury, NY 12804

App. 58
NEW YORK STATE CONSTITUTION
ARTICLE I: Bill of Rights
§9.1. No law shall be passed abridging the rights of the
people ... to petition the government.
ARTICLE IX: Local Governments
§2. (c) In addition to powers granted in the statute of
local governments or any other law. (i) every local gov­
ernment shall have power to adopt and amend local
laws not inconsistent with the provisions of this
constitution or any general law relating to its prop­
erty, affairs or government and, (ii) every local govern­
ment shall have power to adopt and amend local laws
not inconsistent with the provisions of this con­
stitution or any general law relating to the following
subjects, whether or not they relate to the property, af­
fairs or government of such local government, except
to the extent that the legislature shall restrict the
adoption of such a local law relating to other than the
property, affairs or government of such local govern­
ment: (emphasis added).
(1) The powers, duties, qualifications, number, mode of
selection and removal, terms of office, compensation,
hours of work, protection, welfare and safety of its of­
ficers and employees, except that cities and towns shall
not have such power with respect to members of the
legislative body of the county in their capacities as
county officers, (emphasis added).

App. 59
ARTICLE III: Legislature
[§6. Each member of the legislature shall receive for
his or her services a like annual salary, to be fixed by
law. He or she shall also be reimbursed for his or her
actual traveling expenses in going to and returning
from the place in which the legislature meets, not more
than once each week while the legislature is in session.
Senators, when the senate alone is convened in ex­
traordinary session, or when serving as members of
the court for the trial of impeachments, and such mem­
bers of the assembly, not exceeding nine in number, as
shall be appointed managers of an impeachment, shall
receive an additional per diem allowance, to be fixed by
law. Any member, while serving as an officer of his or
her house or in any other special capacity therein or
directly connected therewith not hereinbefore in this
section specified, may also be paid and receive, in ad­
dition, any allowance which may be fixed by law for the
particular and additional services appertaining to or
entailed by such office or special capacity. Neither the
salary of any member nor any other allowance
so fixed may be increased or diminished during,
and with respect to, the term for which he or she
shall have been elected, nor shall he or she be
paid or receive any other extra compensation.
The provisions of this section and laws enacted in com­
pliance therewith shall govern and be exclusively con­
trolling, according to their terms. Members shall
continue to receive such salary and additional allow­
ance as heretofore fixed and provided in this section,

App. 60
until changed by law pursuant to this section, (empha­
sis added).
ARTICLE XIII: Public Officers
§7. Each of the state officers named in this con­
stitution shall, during his or her continuance u office,
receive a compensation, to be fixed by law, which shall
not be increased or diminished during the term
for which he or she shall have been elected or
appointed; nor shall he or she receive to his or her use
any fees or perquisites of office or other compensation,
(emphasis added).

App. 61
UNITED STATES CONSTITUTION
BILL OF RIGHTS
First Amendment: Congress shall make no law re­
specting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people peace­
ably to assemble, and to petition the Government
for a redress of grievances, (emphasis added).
ARTICLE IV - THE STATES
Section 4. Republican government The United States
shall guarantee to every State in this Union a Re­
publican Form of Government, and shall protect
each of them against Invasion; and on Application of
the Legislature, or of the Executive (when the Legisla­
ture cannot be convened) against domestic Violence,
(emphasis added).

